January 24, 2001

ANITA J. BIZZOTTO
VICE PRESIDENT, PRICING AND PRODUCT DESIGN

SUBJECT:     Revised Audit Report–Overview of the Postal Ratemaking Process
             (Report Number MK-LA-00-002(R))

Attached is a revised copy of our internal report on the Postal Ratemaking Process.
The report was revised to update Appendix A, Section I, to reflect the "contingency
amounts in rate cases are generally less than five percent of anticipated costs.” A copy
of the report will be sent to all addressees in the original report. We changed the report
number to MK-AR-00-002(R) to distinguish between the original and revised version of
the reports.

We appreciate your cooperation in this matter. If you have any questions, please
contact Larry Chisley, director, Marketing, or me at (703) 248-2300.



Debra S. Ritt
Assistant Inspector General
 for Business Operations

Attachment

cc: W. Ashley Lyons
    John R. Gunnels
                        January 24, 2001

                        ANITA J. BIZZOTTO
                        VICE PRESIDENT, PRICING AND PRODUCT DESIGN

                        SUBJECT: Postal Ratemaking Process
                                 (Report Number MK-LA-00-002(R))

                        This information report provides a description of the postal
                        ratemaking process (Project Number 99RF005RG000). We
                        conducted this review to obtain background information and
                        to prepare an overview of the ratemaking process. This
                        report will be available on our Internet site.

Results In Brief        The Postal Reorganization Act of 1970 established a postal
                        ratemaking process built around an independent Postal
                        Rate Commission (Commission). The Board of Governors
                        (Board) of the Postal Service proposes new rates to the
                        Postal Rate Commission. The Commission then has ten
                        months to conduct formal hearings and submit an opinion
                        and recommended decision to the Board. The Board may
                        approve, reject, or allow under protest the Commission’s
                        recommendations. The act contains certain guidelines to
                        establish postal rates including the requirement that rates
                        be fair and equitable and cover the cost of operating the
                        Postal Service. Since 1971 the Postal Service has
                        requested omnibus rate increases about every three to four
                        years. Appendix A presents an overview of the postal
                        ratemaking process.

Objective, Scope, and   Our objective was to obtain an understanding of the postal
Methodology             ratemaking process and to prepare a report describing the
                        process. To accomplish our objectives we interviewed
                        major stakeholders involved in the ratemaking process
                        including:

                        •   Postal Service staff from Finance, Law, and Marketing.
                        •   Postal Rate Commission.
Postal Ratemaking Process                                                   MK-LA-00-002(R)



                            •   Office of Consumer Advocate, Postal Rate Commission.
                            •   Staff from eight large mailing associations who were
                                active participants in rate cases.

                            Additionally, we reviewed past ratemaking studies and
                            reports and other historical data. We also reviewed
                            testimony and data from past omnibus rate cases with
                            emphasis on Docket No. R97-1.


Management                  We shared this report with the Postal Service to ensure the
Comments                    technical accuracy of the material. We incorporated
                            management's technical comments, where appropriate, and
                            accordingly only included management's letter transmitting
                            their comments in Appendix B.

                            If you have any questions, please contact Larry Chisley,
                            director, Marketing, at (703) 248-2352 or me at (703) 248-
                            2300.



                            Debra S. Ritt
                            Assistant Inspector General
                             for Business Operations

                            Attachment

                            cc: Allen R. Kane
                                W. Ashley Lyons
                                John R. Gunnels




                                             2
Postal Ratemaking Process                                   MK-LA-00-002(R)




                   APPENDIX A. POSTAL RATEMAKING RESEARCH




                                     3
Postal Ratemaking Process                           MK-LA-00-002(R)




                                TABLE OF CONTENTS

Section I: Background                                     5

Section II: Internal Process                             10

Section III: External Process                            20

Section IV: Prior Ratemaking Studies and Audits          24

Section V: Postal Reform Legislation                     27

Section VI: References                                   29




                                        4
Postal Ratemaking Process                                                                      MK-LA-00-002(R)




                                         Section I: Background


Overview

Each rate case can be broken down into two basic issues:

•   How much revenue does the Postal Service need to cover its costs?
•   Who pays what share of that revenue?

The “how much” issue, known as the revenue requirement, is primarily determined by
the Postal Service. The “who pays” involves issues of costing, rate levels, and rate
design that are presented to the Postal Rate Commission (Commission).

The Board of Governors1 (Board) of the Postal Service proposes new rates to the
Commission. The rate proposal is submitted in the form of a formal request
accompanied by Postal Service testimony and analyses explaining the need for a rate
increase and how the various rate proposals were developed. Large rate and
classification cases that propose changes to all classes of mail are commonly called
omnibus rate cases. Since 1971, the Postal Service has filed an omnibus rate case
about every three to four years. During an omnibus rate case the Postal Service must
develop rate proposals for all subclasses of domestic mail and all 36 special services.
Currently, there are over 4,000 postal rates in effect.

After the Postal Service files the rate proposal, the Commission has ten months to
present a recommended decision to the Governors. During those ten months, the
Commission conducts open hearings on the proposed rate and classification changes.
At these hearings, the Postal Service answers questions from various interested parties
such as customers, competitors, and consumer advocates. The interested parties
critique the Postal Service’s rate proposals and offer their own alternatives. After
considering all evidence, the Commission presents its findings to the Governors in an
Opinion and Recommended Decision.

The Governors have several options after they receive the Commission’s recommended
decision. They may:

•   Approve the recommended decision.
•   Reject the recommended decision.
•   Allow the recommended decision under protest and seek further review.
•   Modify the recommended decision with unanimous written concurrence.

1
  There are nine Governors appointed by the President with the advice and consent of the Senate. Those nine
Governors, plus the postmaster general and deputy postmaster general, make up the Board of Governors. While the
Board of Governors proposes new rates, the nine Governors alone approve rate and classification changes that are
recommend by the Postal Rate Commission.




                                                       5
Postal Ratemaking Process                                                                           MK-LA-00-002(R)



If the Governors reject the recommended decision they may or may not return the
decision to the Commission for reconsideration. If the Governors allow the
recommended decision under protest, they can return the decision to the Commission
for reconsideration or appeal the decision to the U.S. Court of Appeals. After the
Commission’s second, or reconsidered decision, the Governors can modify the decision
if they determine that the recommended rates will yield insufficient revenue.

History

Prior to the Postal Reorganization Act of 1970, Congress set postal rates by law, with
little relationship between the revenue from those rates and the actual cost of operating
the postal system. Until the middle of the nineteenth century, rates were based on the
number of sheets in a letter and the distance it was traveling. In 1845, rates were
based on the weight of the letter and the distance it was going. Beginning in 1863,
letter rates became more “uniform,” that is, they were based largely on weight,
regardless of distance.2 Table 1 shows the history of First-Class stamp rates beginning
in 1885.3

                           Table 1. History of First-Class Stamp Rates

                                                                       Percentage
                                    Date                Rate*           Increase
                           1885                           2¢
                           1917                           3¢               50%
                           1919                           2¢               -33%
                           1932                           3¢               50%
                           1958                           4¢               33%
                           1963                           5¢               25%
                           1968                           6¢               20%
                           1971                           8¢               33%
                           1974                          10¢               25%
                           1975                          13¢               30%
                           1978                          15¢               15%
                           1981 (March)                  18¢               20%
                           1981 (November)               20¢               11%
                           1985                          22¢               10%
                           1988                          25¢               14%
                           1991                          29¢               16%

2
  Rate for First-Class letters varied depending on whether the letters were entered at the local office or nonlocal
office, and whether the local office had letter carriers or not.
3
  History of the United States Postal Service: 1775-1993. Publication 100, U. S. Postal Service, September 1993.




                                                          6
Postal Ratemaking Process                                                     MK-LA-00-002(R)



                      1995                  32¢            10%
                      1999                  33¢             3%

       *The rate for the first ounce of a First-Class letter. Beginning in 1975, additional
       ounces have been charged rates lower than the first-ounce rate.

Legislation

The Postal Reorganization Act of 1970 established the basic principles on which postal
rates are to be set. The primary requirement is that the Postal Service attains financial
"breakeven." That is, postal rates and fees need to provide enough revenues so that
total postal revenues and appropriations equals as nearly as practicable the total costs.
The financial breakeven requirement has been interpreted by the courts to require
breakeven over a period of years. For a rate case, the breakeven requirement is
applied for a single prospective year, known as the test year, a fiscal year beginning not
more than 24 months subsequent to the filing date of the formal request. The revenue
requirement is the total required revenue for the test year. The revenue requirement
includes:

•   Projected operating costs in the test year.
•   An amount to offset prior operating losses.
•   A contingency amount.

The first component, projected operating costs, includes all operating expenses,
depreciation, and debt service. These estimates are developed by adjusting the most
recently reported annual costs called “The Base Year.” Annual costs are adjusted to
test year levels for anticipated changes in prices paid for labor and other resources, and
for the effect on costs of forecasted changes in mail volume, work load, productivity
gains, and other programs that could affect annual costs. The second component, prior
year loss recovery, is provided to achieve breakeven over the long term. The amount of
prior year loss recovery is determined by dividing the accumulated operating loss of the
Postal Service by an amortization period to obtain an annual prior year loss recovery
figure. In prior rate cases, the requested amortization period has been between seven
and nine years. The third component specified in the act is "a reasonable provision for
contingencies." This contingency amount is generally less than five percent of
anticipated costs and provides for the impact of unforeseen events on costs or revenues
that might adversely affect the Postal Service.

Ratemaking Criteria of Title 39

Title 39 U.S.C. section 3622(b) and 3623(c) sets out nine factors or criteria to be
considered by the Commission when recommending new rates and fees. These
criteria, and the abbreviated forms by which they are often referred to, are:




                                             7
Postal Ratemaking Process                                                       MK-LA-00-002(R)



•   3622(b)(1): the establishment and maintenance of a fair and equitable schedule;
    referred to as "Fairness and Equity."

•   3622(b)(2): the value of mail service actually provided each class or type of mail
    service to both the sender and recipient, including, but not limited to, the collection,
    mode of transportation, and priority of delivery; referred to as "Value of Service."

•   3622(b)(3): the requirement that each class of mail or type of mail service bear the
    direct and indirect postal costs attributable to that class or type, plus that portion of
    all other costs of the Postal Service reasonably assignable to such class or type;
    referred to as "Attributable Costs."

•   3622(b)(4): the effect of rate increases upon the general public, business mail
    users, and enterprises in the private sector of the economy engaged in the delivery
    of mail matter other than letters; referred to as "Effect of Rate Increases."

•   3622(b)(5): the available alternative means of sending and receiving letters and
    other mail matter at reasonable costs; referred to as "Available Alternatives."

•   3622(b)(6): the degree of preparation of mail for delivery into the postal system
    performed by the mailer and its effect upon reducing costs to the Postal Service;
    referred to as "Degree of Preparation."

•   3622(b)(7): simplicity of structure for the entire schedule and simple identifiable
    relationships between rates or fees charged the various classes of mail for postal
    services; referred to as "Simplicity."

•   3622(b)(8): the educational, cultural, scientific, and informational value to the
    recipient of mail matter; referred to as "ECSI."

•   3622(b)(9): such other factors as the Commission deems appropriate; referred to as
    ”Other Factors."

Classification Criteria of Title 39

Thirty-nine U.S.C. section 3623(c) sets out six factors or criteria to be considered by the
Commission when making a recommended decision to establish new mail
classifications or change existing ones. The six criteria are:

•   3623(c)(1): the establishment and maintenance of a fair and equitable classification
    system for all mail.




                                               8
Postal Ratemaking Process                                                      MK-LA-00-002(R)



•   3623(c)(2): the relative value to the people of the kinds of mail matter entered into
    the postal system and the desirability and justification for special classifications and
    services of mail.

•   3623(c)(3): the importance of providing classifications with extremely high degrees
    of reliability and speed of delivery.

•   3623(c)(4): the importance of providing classifications which do not require an
    extremely high degree of reliability and speed of delivery.

•   3623(c)(5): the desirability of special classifications from the point of view of both
    the user and of the Postal Service.

•   3623(c)(6): such other factors as the Commission may deem appropriate.




                                              9
Postal Ratemaking Process                                                                     MK-LA-00-002(R)




                                     Section II: Internal Process


From a Postal Service perspective there are two parts to the ratemaking process, an
internal process and an external process. The internal process refers to the Postal
Service decision making and case preparation activities that take place before
presenting a rate case to the Postal Rate Commission. The external process,
discussed in Section III, refers to the activities that take place after the rate case has
been filed with the Commission.

Case Preparation

The ratemaking process begins when postal management projects that current rates will
not be adequate to cover costs in future years. The Postal Service Finance Department
projects volumes, revenues, and costs to determine at what point, i.e., which year,
postal revenues will become insufficient. After determining in which year the financial
condition will be unsatisfactory, a revenue requirement for that year is developed. That
revenue requirement forms the beginning of the rate case preparation process.

As mentioned above, Finance develops the revenue requirement by forecasting
volumes, revenues, and costs. A base year, the most recent year for which cost data
are available, is selected and the base year costs are then adjusted using the
forecasted volumes, revenues, and cost data. Finance also performs special cost
studies to establish the basis for rate discounts. Additionally, Finance supports rate
cases by conducting systems activities that involve the continuous collection,
processing, and development of cost, volume, revenue, and weight data.

The Marketing Department develops the various postal rates and classifications and
develops the specific rate level and rate design proposals. The Law Department writes
the formal request for the change in rates and fees and ensures that all documents
required by the Commission's Rules of Practice are filed. The Law Department also
reviews all testimony and workpapers before they are filed.

Court interpretations of the Postal Reorganization Act have given the Postal Service
wide discretion over the timing of rate changes. Because of the ten-month Commission
hearings, and the time it takes to implement new rates, a decision to change rates must
be made 15-18 months ahead of the desired implementation date. Some strategic
factors that affect the Postal Service's decision to change rates include:4

•   Postal Service performance.
•   External events (economy, inflation, and legislation).
•   Financial goals and strategies.
4
 Postal Rates and Rate-making Procedures: Five Presentations. U.S. Postal Service Rates and Classification
Department, March 1987.




                                                      10
Postal Ratemaking Process                                                 MK-LA-00-002(R)




Revenue Requirement

The Postal Reorganization Act specifies that:

       Postal rates and fees shall provide sufficient revenues so that the total
       estimated income and appropriations to the Postal Service will equal as
       nearly as practicable total estimated costs of the Postal Service.

Courts have interpreted the "as nearly as practicable" to mean that revenues and costs
don’t have to be balanced each year, but balanced over some period of time undefined
by the act. However, within an individual rate case, the breakeven requirement is still
expressed as breakeven for a single prospective year, known as the test year. To
calculate the revenue requirement the Postal Service:

•   Selects a test year (a fiscal year beginning not more than 24 months subsequent to
    the filing date of the formal request).
•   Estimates test year costs by adjusting the most recently reported annual costs.
•   Calculates the revenue requirement by taking the estimated test year costs, plus an
    amount to recover prior losses, plus a contingency amount.

In past omnibus rate cases, the Commission did not materially change the Postal
Service’s revenue requirement request. Table 2 shows that the largest change
occurred in rate case R80-1 when the Commission reduced the Postal Service revenue
requirement by 4.1 percent.

            Table 2. Revenue Requirement for Ten Omnibus Rate Cases
                                    (Millions)

                        Postal                        Final
           Rate        Service    Commission        Revenue         Percentage
           Case        Request     Changes         Requirement       Change
           R71-1        $9,841      ($116)           $9,725           (1.2) %
           R74-1        12,241     No change         12,241               -
           R76-1        14,171     No change         14,171               -
           R77-1        17,642        (97)           17,545           (0.5) %
           R80-1        22,963       (949)           22,014           (4.1) %
           R84-1        29,339        368            29,707            1.2%
           R87-1        38,845        (65)           38,780           (0.2) %
           R90-1        48,109       (193)           47,916           (0.4) %
           R94-1        54,585        (68)           54,517           (0.1) %
           R97-1        61,604       (745)           60,859           (1.2)%




                                           11
Postal Ratemaking Process                                                                        MK-LA-00-002(R)



Systems Activities

The Postal Reorganization Act specifies that each class of mail or type of mail service
bear the direct and indirect postal costs attributable to that class of mail or type of
service. To meet this requirement, the Postal Service must determine the revenues,
volumes, and costs of each class of mail, subclass, and special service. Postal Service
revenue and accounting systems do not provide revenue and cost information down to
the subclass and special service level. Therefore, various statistical systems and
special studies provide data from which estimates of volumes, revenues, and costs for
various categories of mail are developed. In addition to rate case preparation, these
cost and volume estimates are used to prepare budgets, conduct studies, measure mail
flow and service performance, and assist in determining incentive award programs.5

Attributable and Institutional Costs

Total Postal Service costs are broken down into attributable and institutional costs.
Attributable costs are those costs that can be directly traced to a particular subclass of
mail or mail service. Institutional costs are costs that cannot be specifically traced to a
subclass of mail or mail service.

Attributable costs can be volume variable costs that fluctuate with mail volume, or
specific fixed costs that are not fixed in relation to mail volume but can still be attributed
to one particular subclass of mail or service. Almost all attributable costs are volume
variable, with only one percent of attributable costs identified as specific fixed costs.
This information is used not only to develop proposals for new postal rates, but also to
assist in the preparation of budgets, to conduct management studies, and to support
management decisions in transportation and operations regarding mail flow and service
performance. The data are also used in the Economic Value Added financial
management and incentive award program.

Table 3 shows how the Commission allocated attributable costs to the various mail
classes in the 1997 omnibus rate case (Docket No. R97-1).6




5
  Data Collection User’s Guide for Cost Systems: Handbook F-65. U.S. Postal Service Statistical Policies and
Programs Office, July 1998.
6
  Postal Rate Commission: Functions and Procedures. Postal Rate Commission, May 1999.




                                                        12
Postal Ratemaking Process                                                     MK-LA-00-002(R)




                        Table 3. Attributable Cost Distribution
                                   Rate Case R97-1
                                      Other - $3.6
                                         billion
                      Standard (A)       (9%)
                       $9.4 billion                      First-Class -
                         (24%)                           $22.5 billion
                     Standard (B)                           (58%)
                      $1.4 billion
                         (4%)

                                      Periodicals
                                      $2.1 billion
                                         (5%)


Postal Service Costing

The Postal Service uses cost accounting data, together with cost information from data
collection systems and special studies, to obtain estimates of the costs attributable to
the various mail classes and subclasses. The Postal Service goes through a three-step
costing process:

1. Costs are accumulated in the Postal Service system of accounts (general ledger).
2. General ledger costs are allocated to 19 cost segments.
3. Accumulated costs in each cost segment are separated into attributable and
   institutional costs and the attributable costs are distributed to the various products
   (at this stage in costing, the institutional costs are left in one lump sum as a single
   line item, completely independent of subclass).

Step 1: General Ledger Costs. Although the total operating costs of the Postal
Service are available from the general ledger accounts, these accounts do not identify
how much of the total costs should be attributed to each mail class, subclass, or special
service.

Step 2: Cost Segments. The Postal Service takes the general ledger costs and
separates them into 19 cost segments. The 19 cost segments are structured along
costs for craft activities, work activities, or major functions. The 19 cost segments are:

 1.    Postmasters
 2.    Supervisors and Technical Personnel
 3.    Clerks and Mailhandlers
 4.    Clerks (CAG K Post Office)



                                             13
Postal Ratemaking Process                                                   MK-LA-00-002(R)



 5.    City Delivery Carriers (Office Activity)
 6.    City Delivery Carriers (Street Activity
 7.    Vehicle Service Drivers
 8.    Special Delivery Messengers
 9.    Rural Carriers
10.    Custodial and Maintenance Service
11.    Motor Vehicle Service
12.    Miscellaneous Operating Costs
13.    Purchased Transportation
14.    Building Occupancy
15.    Supplies and Services
16.    Research and Development
17.    Headquarters, Area, Corporate-wide Personnel Costs
18.    Equipment Maintenance and Management Training Support
19.    Depreciation, Write-Offs, Claims and Interest

The 19 cost segments are further broken down into smaller cost elements known as
cost components. For example, cost segment number one, postmasters, is broken
down into two cost components:

•   Executive and Administrative Schedule 23 and below.
•   Executive and Administrative Schedule 24 and above.

Step 3: Cost Distribution. The costs within each cost segment are broken down into
attributable and institutional costs. The attributable costs are then allocated to the
various mail classes, subclasses, or special services. Postal Service accounting
systems do not provide cost information for each class, subclass, or special service.
Therefore, the Postal Service uses statistical sampling systems to estimate what portion
of attributable costs in each cost segment will be allocated to the various mail classes,
subclasses, and special services. Institutional costs are not allocated across the
various mail classes and services; the institutional cost burden is distributed across all
mail classes and services to raise enough revenue to cover these costs. This process
is discussed in the Rate Level section (p. 17).

The Postal Service uses information from five major statistical sampling systems to
estimate mail volume and weight and to estimate what portion of the attributable costs
in each cost segment will be allocated to the various mail classes, subclasses and
services. In addition, special studies are conducted to supplement the information from
the major sampling systems. In simplest terms, some of the various statistical cost
sampling systems estimate, for example, what percentages of time employees spend
handling various classes and subclasses of mail. Those estimates are then used to
allocate the employee labor costs to the various mail classes and subclasses.




                                            14
Postal Ratemaking Process                                                                              MK-LA-00-002(R)



Statistical Sampling Systems

There are five primary data collection systems used to estimate mail revenues,
volumes, and costs for domestic mail. One of the systems, the Revenue, Pieces, and
Weight system is used to estimate mail revenue, volume, and weight. The Carrier Cost
System and the In-Office Cost System are used to estimate mail labor costs. The
Transportation Cost System is used to estimate transportation costs. A fifth system, the
Origin-Destination Information System provides some service performance data and
limited information on the shape of mailpieces.

The Statistical Policies and Programs office at Postal Service Finance administers the
statistical programs. As of August 1998, there were 87 statistical program coordinators,
88 statistical program specialists, and 953 full-time data collection technicians located
around the nation who conduct statistical tests.7

Mail Revenue and Volume

The Revenue, Pieces, and Weight Domestic Probability system uses probability-
sampling techniques to measure the characteristics of the total mail volume by
examining (sampling) a small fraction of that volume. Special emphasis is placed on
collecting revenue, volume, and weight estimates for First-Class, Priority Mail, Standard
Mail (B), and special service mail.8 The sampling systems focus on these categories
because they have a high proportion of single-piece mail that cannot be measured
through other existing systems. For example, information on Express Mail volume
comes from the Electronic Marketing Reporting System, which gives a census (as
opposed to a sample) of Express Mail pieces, revenue, and weight. Also, the PERMIT
system collects census information on mail volume, revenue, and weight of pieces
entered using PERMIT and mailing statements. The Electronic Marketing Reporting
System data and the mailing statement data is combined with Revenue, Pieces, and
Weight Domestic Probability system sample data to produce the total Revenue, Pieces,
and Weight report.

Delivery Labor Costs

The Postal Service uses the Carrier Cost System to allocate delivery labor costs across
all relevant mail categories. This cost system uses two types of tests to estimate mail
characteristics on different routes and at different times of the year for each category of
mail. This determines the portion of total delivery costs that is attributable to each mail
class, subclass, and special service. A city carrier route test measures mail
characteristics on city routes while a rural carrier route test measures mail




7
    Statistical Programs. U.S. Postal Service Statistical Policies and Programs Office, August 1998.
8
    Statistical Programs. U.S. Postal Service Statistical Policies and Programs Office, August 1998.




                                                           15
Postal Ratemaking Process                                                                        MK-LA-00-002(R)



characteristics on rural routes. For both tests, randomly selected routes are sampled
throughout the year and mail volume and mail characteristics are recorded.9

Transportation Costs

The Postal Service uses the Transportation Cost System to allocate transportation costs
to various classes and subclasses of mail. The Transportation Cost System uses five
separate sampling systems to gather data on highway, rail, Amtrak, passenger air, and
network air. Essentially, these sampling systems involve opening the trucks, trains, or
planes and recording what mail is on board.10

Personnel Costs

The In-Office Cost System is designed to supplement the payroll accounting system
cost data by sampling employees at randomly selected points in time.
Postal Service payroll accounting systems cannot identify labor costs by subclass of
mail because employees may be simultaneously processing more than one subclass in
some operations. When an employee is sampled, the activity of the employee at that
point in time is recorded as well as the characteristics of any mail the employee is
handling. Employees from each of five craft groups are sampled: (1) clerks,
(2) mailhandlers, (3) city carriers, (4) special delivery messengers, and (5) supervisors.
The results of the In-Office Cost System sampling are applied to labor costs from the
accounting system to obtain estimates of labor costs by craft and function.

Special Studies

In addition to the major data collection systems, the Postal Service uses a number of
special studies to augment the basic costing information. For example, determining
how to allocate costs of vehicle service drivers. Also, the special studies are used to
estimate cost avoidances associated with mailer worksharing activity (for instance, how
much does presorting save the Postal Service in mail processing costs). The need for a
special study is often identified during rate cases. As of June 1999, there were 45
special studies underway for the next omnibus rate case.

Cost Allocation in Docket No. R97-1

In Docket No. R97-1, the Postal Service identified just over 60 percent of Postal Service
costs as being attributable. They identified the remaining costs as institutional costs
that have to be spread over all mail services. Attributing costs to the individual mail
classes, subclasses, and services is the complicated and often controversial part of the
process. During Commission proceedings users of a particular mail service almost

9
  Data Collection User’s Guide for Cost Systems: Handbook F-65. U.S. Postal Service Statistical Policies and
Programs Office, July 1998.
10
   Data Collection User’s Guide for Cost Systems: Handbook F-65. U.S. Postal Service Statistical Policies and
Programs Office, July 1998.




                                                        16
Postal Ratemaking Process                                                     MK-LA-00-002(R)



always take the position that the Postal Service has over-attributed costs to their mail
category. At the same time, Postal Service competitors take the opposite position – that
the Postal Service has not attributed enough costs to that particular mail service.

Revenue requirement issues must be addressed before attributable and institutional
costs can be developed. The test year must be selected and changes in cost levels and
other cost-driving features must be estimated before costs attributable to the classes of
mail can be developed for the test year. Once attributable costs for the test year are
determined, rate level decisions must be made. The rate level decisions must set rate
levels above the attributable cost levels to yield the required total revenue.

After the revenue requirement has been calculated; and mail volume, revenue, and
costs have been estimated and attributed to each mail class and service; the Postal
Service must set rate levels and develop rate designs to recover institutional costs of
the Postal Service. These institutional costs are just under 40 percent of the total Postal
Service costs.

Rate Levels

A rate level is the cost coverage for a class or subclass of mail; rate design is the
process of developing each of the particular rate elements within a subclass or class of
mail. For instance, the rate design process produces a rate for each zone and weight
increment in Priority Mail, and a set of discounts for different levels of presorting in
Periodicals.

In postal ratemaking, the term cost coverage is often used to describe rate level
decisions. Cost coverage is determined by dividing the revenue in a subclass by
attributable costs. In the following illustration, the total average cost coverage
necessary to completely cover all costs - attributable and institutional - is 159 percent.
                                   Total Cost Coverage

                            Institutional
                               Costs
                                               Revenue Requirements      =            Cost
                               37 %
                                            Attributable Costs  Coverage
Revenue
Requirements                Attributable                        Or
                               Costs
                                                   100    = 159 %
                               63 %
                                                    63


Each subclass must cover its full attributable cost. That means that it must have a
minimum cost coverage of 100 percent. In the above illustration, while the average cost




                                             17
Postal Ratemaking Process                                                                     MK-LA-00-002(R)



coverage must be 159 percent in order to breakeven, most of the individual subclass
cost coverages will be higher or lower than 159 percent.

Although rate level decisions are based in theory and analysis, setting rate levels is
inherently a judgmental process. However, rate level decisions are primarily influenced
by three major sets of factors:11

•    Historical interpretation.
•    Statutory requirements in the Postal Reorganization Act.
•    Practical or business constraints.

The rate levels from the last rate case provide a starting point of reference to determine
future rate levels. Generally, large increases/decreases from the most recent rate case
are avoided.

Rate levels are developed based on the statutory requirements outlined in the Postal
Reorganization Act. Additionally, Congress has enacted a number of laws that extend
free or reduced rate mailings to certain nonprofit and other preferential mailers. For
example, the Revenue Forgone Reform Act determines the rate relationship between
nonprofit and preferred rate categories and their commercial counterparts.

Practical and business constraints also influence rate level decisions. One important
practical constraint involves First-Class Mail rates. First-Class rates are set in whole
cents and each one-cent rate increase results in over $1 billion in revenue. Therefore,
each one-cent increase in First-Class Mail drives price increases or decreases in other
classes of mail. Another business constraint is the price level for competitive products
and services. The prices for competitive products and services can't be too high or
sales would suffer.

In the end, rate levels must ultimately be developed and defended explicitly in terms of
the nine pricing criteria set out in the Postal Reorganization Act. The point of
developing rate levels is to distribute the institutional cost burden fairly to the classes
and subclasses of mail. The rate levels determine percentage increase in rates for
each subclass. These percentage increases in rates cause changes in the forecasted
volumes of mail in each category, depending on the price sensitivity (own-price
elasticity) of each mail category. These volume changes then drive changes in both
costs and revenues. A set of rate levels must be developed that, after resulting in
percentage rate increases that drive volume changes and cause changes in costs and
revenues, results in financial breakeven.




11
  Postal Rates and Rate-making Procedures: Five Presentations. U.S. Postal Service Rates and Classification
Department, March 1987.




                                                      18
Postal Ratemaking Process                                                    MK-LA-00-002(R)




Rate Design

Designing rates involves developing a rate structure and determining the specific rates
and rate components in that structure. Over 4,000 separate rates must be designed.
Rate design activities begin with the attributable cost for each subclass of mail. This
cost multiplied by the cost coverage of the subclass yields the revenue required of the
subclass. The rates designed for the subclass must allow this required revenue to be
realized.

Rate design activities are guided by the statutory requirements of the Postal
Reorganization Act. In practice, however, as allowed by the act, the number of factors
that may be considered is not clearly limited. The following rate design factors are
specifically mentioned in the act:

•   Fairness and equity are considered in all rates and in all rate designs. Opinions
    often differ substantially on how these terms should be interpreted.

•   Rate simplicity is an important goal in all mail subclasses. However, since market
    realities and arguments relating to equity usually lead to complexity rather than
    simplicity, tradeoffs are always involved.

•   The degree of preparation of the mail by the mailer is being recognized more and
    more.

•   The educational, cultural, scientific, and informational value of the mail matter is
    required to be given special consideration in setting rates for Periodicals and special
    rate Standard Mail (B).

Other historical rate design factors include constraining the range of percentage
increases within a subclass to prevent "rate shock." Also, maintaining rational rate
relationships both within a subclass (e.g., the heavier the item, the higher the rate) as
well as between subclasses. For example, the Express Mail rate for a weight increment
should be higher than the Priority Mail rate for that increment, which should be higher
than the Parcel Post rate for that weight increment.

After the Board of Governors approves a rate proposal, activity shifts to the process of
presenting a rate request to the Commission. In presenting its rate case, the Postal
Service sends to the Commission dozens of pieces of direct testimony, hundreds of
library references, and thousands of pages of workpapers and other analyses to support
the testimony and library references.




                                             19
Postal Ratemaking Process                                                   MK-LA-00-002(R)




                             Section III: External Process


Postal Rate Commission

The Postal Rate Commission is an independent agency of the Executive Branch
created by the Postal Reorganization Act of 1970 for the primary purpose of setting
postal rates. Prior to 1970, Congress established postal rates and most rates were
changed infrequently. One of the reasons for the passage of the Postal Reorganization
Act was to reduce the continuing losses associated with providing mail services. The
act was designed, in part, to have the Postal Service operate in a more businesslike
manner and to cover its costs (financial breakeven). Additionally, Congress wanted to
ensure that all interested parties had an opportunity to be heard before the Postal
Service changed its rates. The President appoints the five Commissioners and
designates the Chairman. The Senate confirms members for six-year terms. The
Commission operates with a multi-disciplined staff of about 45 individuals trained in law,
economics, statistics, and cost accounting.

The Commission has jurisdiction over changes in postal rates, fees, and mail
classifications proposed by the Postal Service. Rate and classification proceedings that
involve changes in postal rates and fees for all classes of mail and special services and
numerous changes in the mail classification system are known as omnibus rate cases.
Since the 1970 reorganization, the Commission has issued recommended decisions in
11 omnibus rate cases.

The Commission does not review recommended rates for international mail. Mail
originating in the U.S. for delivery abroad pays international mail rates that are
established by the Postal Service. The Postal Reorganization Act gives the Postal
Service the authority to establish international postal agreements and postal rates.
Therefore, the Postal Service does not have to submit, and the Postal Rate Commission
does not review, proposed rates for international mail. However, because the Postal
Service's cost, volume, and revenue estimates for international mail impacts domestic
mail rates, Congress requires the Commission to prepare an annual report on the costs,
revenues, and volumes of each international mail product and service.

How the Commission Operates

To ensure that all interested parties had an opportunity to be heard, Congress wrote
into the act the requirement that the Commission hold open hearings on the rate and
classification proposals. During these hearings all relevant and material evidence must
be considered. As a result, the record developed in omnibus rate cases is often huge,
involving many costing, pricing, market analysis, and public policy issues. By the
second omnibus rate case in 1974, the evidentiary record was becoming
unmanageable. Because of a delayed decision in the second omnibus rate case,




                                            20
Postal Ratemaking Process                                                                  MK-LA-00-002(R)



during which time the Postal Service suffered significant losses, Congress amended the
1970 act and required the Commission to issue its decision within ten months. This
time limit can only be extended if the Postal Service delays the Commission’s decision
by failing to respond within a reasonable time to any lawful Commission order.

Current Procedures

The Postal Reorganization Act also granted the Commission the authority to establish
procedural rules that would promote fairness and timeliness. Currently, the
Commission’s procedures can be divided into seven stages:12

1.    The Postal Service's request
2.    The Commission's notice
3.    The discovery process
4.    Commission hearings
5.    Initial briefs and reply briefs
6.    Oral arguments
7.    The Commission's Opinion and Recommended Decision

Most rate and classification cases begin when the Postal Service submits a formal
request for proposed new rates and classification changes to the Postal Rate
Commission. To support its request the Postal Service provides detailed testimony,
cost studies, market research, surveys, and workpapers explaining the revenue
requirement; revenue, volume and cost estimates; rate levels; and rate designs.

After the request is filed, the Commission issues a notice, which is published in the
Federal Register, notifying interested parties that hearings will be held. Direct notices
are also sent to interested parties who participated in recent rate cases.

Discovery is the principal means used by the Commission to develop an evidentiary
record on which to base its recommended decision. Because of the 10-month
timeframe, Commission procedures are designed to expedite the process while still
allowing all relevant evidence to be considered. After the Postal Service files its case,
written discovery takes place, followed by public hearings and oral cross-examination of
postal witnesses. Then the intervenors file their cases, written discovery on their cases
ensues, and then there are public hearings and oral cross-examination of intervenor
witnesses. Subsequently, both the Postal Service and intervenors file rebuttal
testimony for which there is no written discovery process, only oral cross-examination.

The discovery process allows interested parties to question Postal Service witnesses
about their testimony and supporting material. The Commission itself can request
information from the Postal Service in the form of Presiding Officer's Information
Requests. Additionally, all parties may seek information from the Postal Service as an

12
     Postal Rate Commission: Functions and Procedures. Postal Rate Commission, May 1999.




                                                       21
Postal Ratemaking Process                                                      MK-LA-00-002(R)



institution, as opposed to seeking information only from postal witnesses. Under
Commission rules there are three types of discovery:

•   Interrogatories, or written questions.
•   A request for production of documents.
•   A request for the admission of relevant facts.

In omnibus rate cases, the initial discovery period for examining the Postal Service's
case is generally between 9 and 14 weeks. In recent rate cases the Commission has
tried to speed up the process by directing the Postal Service and other interested
parties to respond to discovery within 14 days.

The Commission normally holds three stages of public hearings:

•   Hearings on the direct evidence the Postal Service submitted with its case. During
    hearings on direct evidence, Postal Service witnesses are subject to cross-
    examination by interested parties over a period of three or four weeks.

•   Hearings on the evidence interested parties have submitted. The interested parties
    may submit direct evidence, such as introducing a new proposal, or they may submit
    evidence rebutting the testimony of the Postal Service.

•   Hearings on rebuttal testimony filed by the Postal Service (and interested parties) to
    rebut the evidence submitted by other interested parties.

Initial briefs are written legal documents filed by the Postal Service and interested
parties to support their positions. Reply briefs are written responses to the legal
arguments of the Postal Service and other interested parties.

Oral arguments conclude the formal hearings and allow the Postal Service and
interested parties an opportunity to highlight key points and issues raised during the
proceedings.

After considering the evidence from the hearing record, the Commission presents their
findings and conclusions in an Opinion and Recommended Decision. The Commission
weighs all record evidence from both the Postal Service and intervenors and may make
substantive changes to the Postal Service's proposals based on evidence that was put
on the record during the case. In reaching their decision, the Commission follows
ratemaking guidelines included in the Postal Reorganization Act of 1970. Included are
requirements that postal rates and fees be fair and equitable and that each type of mail
bears the direct and indirect postal costs attributable to that type of mail plus a portion of
all other costs of the Postal Service reasonably assignable to that type of mail.




                                              22
Postal Ratemaking Process                                                                       MK-LA-00-002(R)




Office of Consumer Advocate

The Office of the Consumer Advocate is an independent office within the Commission
and represents the interests of the general public in the Commission proceedings. They
are colocated with the Postal Rate Commission and have a small staff of about 15 rate
analysts, economists, and attorneys. During a rate case the Office of Consumer
Advocate helps develop a complete and accurate hearing record and advocates specific
proposals that will benefit the general public.13

Intervenors

Intervenors are a diverse group of mailers, Postal Service competitors, and employee
organizations that participate in omnibus rate cases. The Office of Consumer Advocate
is also considered an intervenor. Additionally, interested individuals representing only
themselves can participate as intervenors. During Commission proceedings, postal
experts from these organizations thoroughly review and critique Postal Service data and
proposals. The individual intervenors have narrow interests-they want to ensure that
the rates for the class of mail they use most frequently remain as low as possible. To
do so, they often have to defend their class or subclass of mail against attack from other
intervenors. In general, the mailers take the position that costs have been over-
attributed to their particular class or subclass of mail. Competitors often take the
opposite position-that the Postal Service has not attributed enough costs to its
competitive products, primarily its expedited and parcel mail products.




13
   Role of the OCA at the Postal Rate Commission. Postal Rate Commission Internet Site, Available at
http://www.prc.gov/oca.htm




                                                       23
Postal Ratemaking Process                                                   MK-LA-00-002(R)



                    Section IV: Prior Ratemaking Studies and Audits


Over the 30-year period since the 1970 Postal Reorganization Act, many studies have
proposed changes to the postal ratemaking process. Most of these studies have
focused on ratemaking changes to reflect the competitive environment in which the
Postal Service operates. Three of the more recent studies are discussed below.

Data Quality Study. In April 1999, A.T. Kearney, Inc., a national consulting firm,
completed a two-year study of the quality of data used in postal ratemaking. The study
was cosponsored by the Postal Service, Commission, and General Accounting Office
(GAO) in response to a congressional request for an independent review of ratemaking
data.

The Data Quality Study consists of a 142-page Summary Report and four Technical
Reports.

•   Technical Report #1:    Economic Analysis of Data Quality Issues.
•   Technical Report #2:    Statistical Analysis of Data Quality Issues.
•   Technical Report #3:    Simulation Analysis of Data Quality Issue.
•   Technical Report #4:    Alternative Approaches to Data Collection.

The overall objective of the study was to determine whether the Postal Service
"provided sufficiently (1) complete and (2) accurate data for ratemaking, considering the
costs involved in providing such data." In general, the study concluded that the quality
of data provided by the Postal Service for ratemaking was sufficiently complete and
accurate, considering the costs to collect the data. Although the Postal Service does
not track or calculate the costs of collecting ratemaking data, the Postal Service
estimated the cost for fiscal year 1998 was about $77.8 million.

The Study makes 47 recommendations on how the Postal Service can improve cost
data collected for the following four areas:

•   Mail processing.
•   Delivery.
•   Capital and Support.
•   Revenue, Volume, and Weight.

In December 1999, the Postal Service reported that of the 47 study recommendations,
they had combined similar and redundant recommendations and identified 37
recommendations. Of the 37 recommendations, 11 recommendations were being
implemented, 7 recommendations would be implemented in the long-term, 15
recommendations need further management consideration, and 4 recommendations
would not be implemented because they either hurt data quality or depended on
changes in operations that were not likely to occur within the relevant planning horizon.



                                              24
Postal Ratemaking Process                                                                        MK-LA-00-002(R)




Institute of Public Administration. Because of contention between the Postal Service
and the Postal Rate Commission over the 1990 rate case, the Board of Governors
contracted with the Institute of Public Administration14 to study the ratemaking process.
In October 1991, the Institute presented a report to the Board of Governors that
concluded the ratemaking process adversely affected the Postal Service’s ability to
serve the public and compete in a changing competitive environment. They reported
that the process had become too cumbersome, rigid, and narrow. The Institute of
Public Administration recommended that the Board of Governors and the Commission
establish a joint task force to draft a comprehensive revision of rules governing
ratemaking and classification. Among other suggestions, the institute recommended
that:

•    Omnibus rate cases should be based on a four-year financial plan, rather than on a
     one-year test period.
•    The Postal Service and Commission should agree on categories of information to be
     submitted with the plan, which should become regular products of budgeting and
     information systems.

These suggestions were not implemented.

Joint Task Force on Postal Ratemaking. In response to the Institute of Public
Administration’s report, the Postal Service and the Postal Rate Commission established
a joint task force to examine ratemaking and to provide proposals for new procedures.
In June 1992, the Joint Task Force issued a report, which called for more flexibility in
pricing by the Postal Service and a continuing need for greater accountability in postal
financial performance. None of the Task Force’s recommendations were fully
implemented. Some of the key recommendations included:

•    A four-year ratemaking cycle.
•    A “rate band approach for competitive postal products that would allow the Postal
     Service to set rates within this band to meet competitive pressures.”
•    Recommendations to help the Postal Service experiment with new product lines and
     changes in service (the Postal Rate Commission adopted some of these
     recommendations into their rulemaking procedures).

General Accounting Office. The GAO has conducted a series of audits focusing on
postal ratemaking. Their most recent effort was a 1995 audit, which summarized past
GAO efforts and presented a number of recommendations designed to improve the
ratemaking process.15 In general, past GAO audits have concluded that to better
compete in competitive markets, the Postal Service needs more flexibility in setting
postal rates and these rates should be based to a greater extent on economic
14
   A private, nonprofit organization whose staff members include specialists in public and business administration,
finance, political science, and economics.
15
   GAO Report No. GAO/GGD-96-8. U.S. Postal Service: Postal Rate-making in Need of Change, October 15, 1995.




                                                        25
Postal Ratemaking Process                                               MK-LA-00-002(R)



principles. Among other things, GAO found that Congress might have to clarify the
1970 ratemaking criteria because of continuing disagreements between the Postal
Service and the Commission.




                                          26
Postal Ratemaking Process                                                    MK-LA-00-002(R)




                            Section V: Postal Reform Legislation

Currently, two postal reform bills are pending in the U.S. House of Representatives,
Committee on Government Reform. H.R. 22, “The Postal Modernization Act of 1999,”
and H.R. 2535, “The Postal Service Enhancement Act.”

House Resolution 22

Under H.R. 22, the Postal Reorganization Act of 1970 would be modified and a new
postal rate-setting process would be established. Postal products would be divided into
two categories, noncompetitive and competitive mail categories. The Postal Rate
Commission would review the placement of new postal products in those categories.

Noncompetitive products would include First-Class Mail and other products for which
there are few alternatives to the Postal Service. Rates for noncompetitive products
would be under a price cap system that would basically limit rate increases to changes
in the Consumer Price Index for All Urban Consumers less an "X" factor reflecting
productivity that would be set by the Commission. The Commission would establish the
price caps and review them every five years. Once the price caps were established, the
Board of Governors could adjust prices within the price caps. The idea behind the price
cap system is that it would offer the Postal Service some pricing flexibility while keeping
postal rates stable. Also, it would create incentives for Postal Service cost efficiencies
since the Postal Service would be able to keep profits they generate as long as rates
remain within the Postal Rate Commission imposed caps.

Under H.R. 22, the Board of Governors would have the authority to establish rates for
all competitive products. There would be two minimum rate requirements for
competitive products. First, rates for each individual competitive product would have to
be set high enough to cover both the direct and indirect postal costs attributable to that
product. Second, competitive products would annually have to contribute as a group at
least an equal percentage of institutional costs, as all noncompetitive and competitive
products combined. The purpose of the rule would be to prevent the Postal Service
from loading a disproportionate share of costs on the users of noncompetitive mail.

In addition to the current Postal Service fund, a second competitive product fund would
be created within the Treasury solely for the revenues and expenditures associated with
competitive products. The purpose of this separate fund would be to level the playing
field for competitive products and to protect the interests of noncompetitive consumers
and taxpayers. Essentially, the Postal Service would operate this fund at its discretion,
but the fund would not obtain government loans and could not have access to the
Postal Service funds. The fund would begin with an amount, set by the Commission,
equal to the net value of assets and liabilities currently used by the Postal Service in
providing competitive products. H.R. 22 would also allow the Postal Service to sell




                                             27
Postal Ratemaking Process                                                MK-LA-00-002(R)



nonpostal products if they were produced by a private law corporation owned by the
Postal Service and funded from the Competitive Products Fund.

House Resolution 2535

H.R. 2535 was introduced as an alternative to H.R. 22. It would allow the Postal
Service to negotiate service agreements with large-volume mailers. Additionally, H.R.
2535 would allow the Postal Service to establish rates for competitive products and
services. The measure would also create a special commission to examine the Postal
Service’s efficiency and effectiveness.




                                          28
Postal Ratemaking Process                                                 MK-LA-00-002(R)




                               Section VI: References


"Data Collection User's Guide for Cost Systems: Handbook F-65." U.S. Postal Service
Statistical Policies and Programs Office, July 1998.

"Data Collection User's Guide for Revenue, Volume, and Performance Measurement
Systems: Handbook F-75." U.S. Postal Service Statistical Policies and Programs
Office, September 1997.

Direct Testimony of Carl G. Degen before the Postal Rate Commission in Docket No.
RC97-1, Postal Service-T-12.

Direct Testimony of Joe Alexandrovich before the Postal Rate Commission in Docket
No. RC97-1, Postal Service-T-5.

Direct Testimony of John C. Panzar before the Postal Rate Commission in Docket No.
RC97-1, Postal Service-T-11.

Direct Testimony of Norma B. Nieto before the Postal Rate Commission in Docket No.
RC97-1, Postal Service-T-2.

Direct Testimony of Thomas W. Harahush before the Postal Rate Commission in
Docket No. RC97-1, Postal Service-T-3.

Foucheaux, Daniel. U.S. Postal Service National Law Department, "Summary of
Intervenor Testimony," U.S. Postal Service, January 1998.

Gelb, Bernard A., McCalip, Bermevia M., and Rappaport, Edward B. "Postal Service:
How H.R. 22 Would Change Current Law." Congressional Research Service Report for
Congress, October 7, 1998.

"History of the United States Postal Service: 1775-1993." Publication 100, U S. Postal
Service, September 1993.

"In-Office Cost System - Field Operating Instructions: Handbook F-45." U.S. Postal
Service Statistical Policies and Programs Office, June 1998.

"The Postal Modernization Act of 1999: Section-by-Section Analysis." U.S. House of
Representatives, Committee on Government Reform, Subcommittee on the Postal
Service, Internet site at HTTP:
www.house.gov/reform/postal/hearings/secbysec106.htm




                                           29
Postal Ratemaking Process                                                  MK-LA-00-002(R)



"Postal Rate Commission: Functions and Procedures." Postal Rate Commission
Internet site, Available HTTP: www.prc.gov/fandp/fandp.html

Postal Rate Commission's Opinion and Recommended Decision: Docket No. RC97-1.

"Postal Rates and Rate-Making Procedures: Five Presentations." U.S. Postal Service
Rates and Classification Department, March 1987.

"Role of the OCA at the Postal Rate Commission." Postal Rate Commission Internet
site, Available HTTP:www.prc.gov/oca.htm

"Statistical Programs." U.S. Postal Service Statistical Policies and Programs Office,
August 1998.

"U.S. Postal Service Cost and Revenue Analysis: Fiscal Year 1998." U.S. Postal
Service, September 30, 1998.

"U.S. Postal Service Data Quality Study." A.T. Kearney, Inc., April 16, 1999.

"U.S. Postal Service: Postal Rate-Making In Need of Change." General Accounting
Office, GAO/GGD-96-8, November 1995.




                                           30
Postal Ratemaking Process                                 MK-LA-00-002(R)



                      APPENDIX B. MANAGEMENT’S COMMENTS




                                     31
